i

2311 Douglas Street
Omaha. Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

Legal B r i e f s
Est. 3923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com
No.
CURT DANIELS and INDIAN CREEK CORPORATION,
Petitioners,
v.
JOHN HOLTZ, personally and JOHN HOLTZ, dba
WSH PROPERTIES, LLC, HUNTERS RETREAT, LLC,
and NAVAJO ASSOCIATES, LLC,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that 1 did, on the 30th day of June, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
CURT DANIELS, Attorney pro se
P.O. Box 701
Chariton, Iowa 50049
(641) 774-4050
curt_danieis@hotmail.com
Counsel for Petitioners

Subscribed and sworn to before me this 30th day of June, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL HQMRY-State of Nebraska I
RENEE J. GOSS

1

SB My Comm. Exp. SaptambarS, 20231
Notary Public

Affiant

40990

John Holtz
1747 East Morten Avenue, Suite 105
Phoenix, AZ 85020
(No phone or e-mail available)
Robert L. Stewart, Attorney
Robert Stewart & Associates PC.
1747 East Morten Avenue, Suite 105
Phoenix, AZ 85020
602-266-7766
Robert@rslawaz.com

